               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




   Retail Customer Experience Program

                       Audit Report




                                              July 9, 2013

Report Number MS-AR-13-010
                                                                             July 9, 2013

                                                Retail Customer Experience Program

                                                         Report Number MS-AR-13-010



BACKGROUND
The U.S. Postal Service's retail network      The Postal Service can improve the
includes 32,000 facilities and in fiscal      Retail Customer Experience Program's
year (FY) 2012 it had 840 million             effectiveness by increasing the
customers who conducted 1.7 billion           emphasis on customer satisfaction and
transactions. The Postal Service’s Retail     revenue generation variables in its
Customer Experience Program —                 scoring system. Such changes would
anonymous shoppers who conduct                likely improve customer satisfaction,
transactions at post offices and evaluate     promote customer loyalty, and correct
their experiences — helps identify and        deficiencies observed by mystery
correct conditions detrimental to             shoppers that were reported as lost
customer satisfaction that may inhibit        revenue opportunities.
revenue growth at larger retail facilities.
The Postal Service spent $3.7 million on      We estimate the Postal Service could
this contracted service in FY 2012.           generate $15.4 million in additional
                                              revenue in FY 2014 if it placed greater
Our objectives were to evaluate the           emphasis on revenue generation and
effectiveness of the Retail Customer          customer satisfaction variables in the
Experience Program and identify               scoring system.
opportunities to improve customer
service and generate revenue.                 WHAT THE OIG RECOMMENDED:
                                              We recommended the Postal Service
WHAT THE OIG FOUND:                           place greater emphasis on customer
The Postal Service has an opportunity         satisfaction and revenue generation.
to improve the effectiveness of the           Key considerations should include
Retail Customer Experience Program by         updating the scoring system to increase
placing a greater emphasis on customer        emphasis on the personal interaction
satisfaction and revenue generation.          between the window clerk and customer
The program is a valuable mechanism           to improve customer satisfaction and
for determining whether retail operations     revenue generation, reassessing the
are complying with organizational             5-minute wait time in line standard, and
priorities and understanding conditions       updating guidance to reflect the
at retail offices that may adversely affect   objective of the program.
customer satisfaction and revenue
growth. However, the program scoring          Link to review the entire report
system focuses mainly on compliance
and does not sufficiently factor in
customer satisfaction and revenue
growth variables.
July 9, 2013

MEMORANDUM FOR:            EDWARD F. PHELAN, JR.
                           VICE PRESIDENT, DELIVERY AND POST OFFICE
                           OPERATIONS

                                E-Signed by Inspector General
                            VERIFY authenticity with eSign Desktop

FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue and Performance

SUBJECT:                   Audit Report – Retail Customer Experience Program
                           (Report Number MS-AR-13-010)

This report presents the results of our audit of the Retail Customer Experience Program
(Project Number 12RG034MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet Sorensen, director, Sales
and Marketing, or me at 703-248-2100.

Attachment

cc: Megan J. Brennan
    Maura Robinson
    Corporate Audit and Response Management
Retail Customer Experience Program                                                                                 MS-AR-13-010



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Retail Customer Experience Program ............................................................................. 3

   Scoring System ........................................................................................................... 3

   5-Minute Wait Time in Line Standard .......................................................................... 5

   Retail Customer Experience Guidance ........................................................................ 6

Recommendation ............................................................................................................ 7

Management’s Comments .............................................................................................. 7

Evaluation of Management’s Comments ......................................................................... 7

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objectives, Scope, and Methodology ........................................................................ 10

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Monetary Impacts ..................................................................................... 12

Appendix C: Management's Comments ........................................................................ 14
Retail Customer Experience Program                                                                    MS-AR-13-010




Introduction

This report presents the results of our audit of the U.S. Postal Service's Retail Customer
Experience (RCE) Program (Project Number 12RG034MS000). Our objectives were to
evaluate the effectiveness of the RCE Program and identify opportunities to improve
customer service and generate revenue. This self-initiated audit addresses strategic
and financial risk. See Appendix A for additional information about this audit.

The Postal Service's substantial retail network includes 32,000 facilities. In fiscal year
(FY) 2012, the retail network had 840 million customers who conducted 1.7 billion
transactions. The Postal Service’s ability to facilitate positive experiences at these retail
locations is important for retaining customers — customers who have an increasing
number of available alternatives — and for growing revenue.

The Postal Service uses the RCE Program 1 to objectively determine whether retail
officials are complying with organizational priorities and evaluate the experiences of its
retail customers. This allows the agency to identify and correct conditions that are
detrimental to customer satisfaction that may inhibit revenue growth. The Postal
Service’s Delivery and Post Office Operations group manages the RCE Program,
which applies to offices that generate at least $450,000 in annual walk-in revenue or are
in the top 20 percent of the highest revenue-producing offices within a district. In
FY 2012, 79,350 RCE evaluations occurred at 8,048 retail offices. These offices
generated $8.4 billion of walk-in revenue in FY 2012 (73 percent of the Postal Service's
$11.5 billion total).

The program relies on independently contracted customers, or mystery
shoppers, who visit post offices to conduct transactions. In FY 2012, the Postal Service
spent $3.7 million on this contract, effective through September 30, 2013. Mystery
shoppers evaluate and document their experiences across six main categories 2 by
completing a standardized questionnaire that includes questions such as:

   How long was your wait time in line (WTIL)?

   Did the employee ask whether the item contained any potentially HAZMAT?

   Did the employee offer a specific product for you to mail your package?

   Did the employee greet you pleasantly, make eye contact at the beginning of the
    transaction, and end the transaction in a pleasant manner?

1
  The Postal Service has had a Mystery Shopper Program in place since the 1990s and changed it to the RCE
Program in 2010.
2
  The six categories are (1) WTIL, (2) Promotions and Merchandising, (3) Image, (4) Hazardous Materials (HAZMAT),
(5) Product Offering, and (6) Product Explanation. Additional information on the definitions and questions included in
these categories is provided in Appendix A.
                                                           1
Retail Customer Experience Program                                                                 MS-AR-13-010



   Was the interior neat, clean, and well-maintained?

The contractor compiles the results of each evaluation and uploads them into a Postal
Service data warehouse. 3 The Postal Service then assesses the results and develops
RCE scores based on the methodology shown in Table 1.

                            Table 1. FY 2012 RCE Scoring Categories

                                                                          Weight
                              RCE Categories 4                         (Percentage)
                   WTIL                                                                 40%
                   Promotion and Merchandising                                          25%
                   Image                                                                20%
                   HAZMAT                                                               15%
                   Product Offering                                                      0%
                   Product Explanation                                                   0%
                   Total                                                               100%
                  Source: RCE program manager.

The data warehouse allows Postal Service retail officials to extract detailed reports to
further analyze performance at various retail locations. For example, if the mystery
shopper records that the window clerk did not offer specific products or services, the
system calculates a corresponding revenue loss. The Postal Service uses RCE scores
and evaluations to assess and improve retail operations.

Conclusion

The Postal Service has an opportunity to improve the effectiveness of its RCE Program
by placing greater emphasis on customer satisfaction and revenue generation. The
RCE Program is a valuable mechanism for determining whether Postal Service retail
operations are complying with organizational priorities and understanding conditions in
retail offices that may adversely affect customer satisfaction and revenue growth.
However, we found that RCE Program scoring focuses mainly on compliance and does
not sufficiently factor in customer satisfaction and revenue growth variables — which
are the objectives of the program as described in published Postal Service guidance. 5

The Postal Service can improve the RCE Program's effectiveness by increasing the
emphasis on customer satisfaction and revenue generation variables in the RCE
scoring system. Key considerations should include updating the scoring system to
increase the value of RCE variables pertaining to the personal interaction between the

3
  A data warehouse is a collection of data from many sources that is stored in a single place for reporting and
analysis.
4
  Per RCE program managers, the weights assigned to these various categories are periodically re-evaluated. The
most recent changes occurred in FY 2012, when management eliminated the weighing of Product Offering and
Product Explanation and assigned additional weights to the other four categories.
5
  Handbook PO-209, Retail Operations, Section 8-2, dated May 2011.

                                                        2
Retail Customer Experience Program                                                                    MS-AR-13-010



clerk and the customer to improve customer satisfaction and promote revenue
generation, reassessing the 5-minute WTIL standard, and updating RCE guidance to
reflect the organizational objective of the program.

These changes would likely improve customer satisfaction, promote loyalty, and correct
deficiencies observed by mystery shoppers that were reported as lost revenue
opportunities. We estimate the Postal Service could generate $15.4 million in additional
revenue in FY 2014 if it places greater emphasis on revenue generation and customer
satisfaction variables in the scoring system. See Appendix B for monetary impact and
our detailed calculations.

Retail Customer Experience Program

Opportunities exist for the Postal Service to increase customer satisfaction and retail
revenue by improving the effectiveness of its RCE Program. The RCE Program is a
valuable mechanism for determining whether Postal Service retail operations are
complying with organizational priorities and understanding conditions in retail offices
that may adversely affect customer satisfaction and revenue growth. For example, it is
an objective way to determine whether clerks are asking the required HAZMAT
questions, which are important for compliance purposes to help ensure the safety and
security of the mail. The RCE Program also objectively collects a large amount of
information on key factors such as customers' WTIL and the retail office's appearance,
which leading practices show have a direct impact on customer experiences and loyalty
decisions. Many successful companies rely on mystery shoppers to provide meaningful
insight into their retail operations, including customer experiences and revenue-
generating opportunities. 6

We believe, however, that the Postal Service could improve the RCE Program to
increase customer satisfaction and generate additional revenue. Specifically, issues
related to the scoring system, the 5-minute WTIL standard, and RCE guidance may be
driving operations and behavior in retail offices that are not conducive to enhancing the
customer experiences and capturing revenue-generating opportunities.

Scoring System

The Postal Service can improve the effectiveness of the RCE Program by placing a
greater emphasis on customer satisfaction and revenue generation in the RCE scoring
system. First, the Postal Service’s scoring system discounts a portion of the visit that is
key to customers' overall satisfaction — the face-to-face portion of the visit. Currently,
only 10 percent of the RCE score relates to the interaction between the window clerk
and the customer. 7 Research from a leading customer experience organization
indicates that face-to-face interaction between clerks and customers has a major impact

6
  We gathered additional perspective on best practices throughout this report from research by leading organizations
including the Temkin Group, Corporate Executive Board, Ipsos, LSA Global, CSP Business Media LLC, and Service
Intelligence.
7
  This 10 percent is included in the Image category in Table 1.

                                                         3
Retail Customer Experience Program                                                                       MS-AR-13-010



on customer experiences and their loyalty and spending decisions. Specifically, positive
interactions between clerks and customers can offset longer wait times. The Postal
Service’s WTIL Chronicle 8 dated May 2012, affirmed that WTIL measured alone was
not predictive of actual customer engagement and loyalty. It said, “Ultimately, the feeling
of being valued and treated well by the [window clerks], coupled with a reasonable
WTIL, creates a positive customer experience — leading to long-term customer loyalty,”
and that “feeling valued and finding the [window clerk] to be pleasant and attentive can
mitigate the negative effects of WTIL.”

Second, the scoring system does not factor in key variables used to assess the
revenue-generating and sales abilities of the clerks. RCE tracks data for key categories
with a direct focus on sales and revenue generation — Product Offering and Product
Explanation. 9 The RCE system takes information gathered for these two categories to
calculate a 'revenue loss' 10 for each visit. None of these variables or calculations,
however, are factored into the RCE scoring system. Postal Service officials stated that,
historically, they have factored some of this data into the scoring system, but
organizational priorities have resulted in the data being removed from the calculation.
While we recognize that organizational priorities change, leading practice research
indicates that incorporating some revenue-generating variables into the RCE score is
important because a key purpose of retail transactions is to generate revenue — both
during the immediate transaction and through a positive customer experience that
facilitates future retail transactions with the Postal Service.

Postal Service RCE Program managers stated that the current scoring system reflects
their desired attention on compliance with management priorities, and that senior
management designated the categories and their associated weights on the overall
score. The district and local officials we met with 11 correspondingly stated that they
focus their management on activities included in the RCE score, particularly WTIL
because it accounts for 40 percent of the score. They also stated that not meeting the
WTIL standard results in failing the overall RCE evaluation, which prompts significant
corrective actions.

These district and local officials, however, recognize that focusing so much attention on
WTIL can be detrimental to customer satisfaction and revenue, because it may come at
the expense of quality clerk-customer interactions. These officials stated that it has
been their experience that these interactions tend to have a greater impact on customer
satisfaction, particularly when compared to WTIL (customers who waited longer than
5 minutes would likely still leave satisfied if they felt they had been treated well and their
needs had been met) and revenue-generating opportunities, because it allows clerks to


8
  A quarterly newsletter that provides tips on how to better manage wait time. The newsletter highlights those districts
that are doing particularly well within the quarter and also provides tips to decrease WTIL.
9
  The Postal Service has many products available to customers. Postal Service employees should inform customers
of these products with an explanation so customers can determine whether they suit their particular needs.
10
   This loss is calculated based on whether the clerk offered the mystery shopper specific products and services.
11
   We selected districts and retail offices for additional audit work and interviews based on a judgmental sample of
RCE scores (such as those that had high scores, low scores, or improved scores).

                                                           4
Retail Customer Experience Program                                                                 MS-AR-13-010



inform customers about various products and services and listen to the customers'
mailing needs.

By not sufficiently factoring these types of variables into the RCE scoring system, the
Postal Service may be driving operations and behaviors at local retail offices that are
not conducive to enhancing customer experiences and capturing revenue-generating
opportunities. While we agree that the current scoring system is useful for assessing
retail operations' compliance, we believe the system could easily be modified to
enhance customer satisfaction and revenue generation. Specifically, key considerations
should be made for capturing and appropriately scoring the personal interaction
between the clerk and the customer and the revenue-generating or 'selling' abilities of
the clerk.

An available option could be allocating specific variables and weights to the compliance,
customer service, and revenue-generation categories. Doing so could help align key
variables with the purpose for each category (for example, scoring HAZMAT as a
'compliance' variable rather than one with a direct impact on customer service or
revenue generation). This would still allow the Postal Service to focus on compliance
but would also take advantage of other RCE data to increase customer satisfaction and
generate revenue.

We estimate the Postal Service could have generated additional revenue of
$21 million in FY 2012 and $18 million in FY 2013 if it placed greater emphasis on
revenue-generating and customer satisfaction variables in the scoring system.
Furthermore, we estimate this additional emphasis could generate $15.4 million in
additional revenue in FY 2014. Additional information on these estimates and
calculations is provided in Appendix B.

5-Minute Wait Time in Line Standard

The Postal Service can improve the effectiveness of the RCE Program by reassessing
the 5-minute WTIL standard used in the RCE scoring system. This standard, which was
set by Postal Service management in the 1990s, 12 may not be an appropriate threshold
for evaluating RCEs throughout the country because it does not consider other factors
that have a significant impact on WTIL, such as:

    Number of transactions — offices with more transactions may be at a greater-risk of
     exceeding the 5-minute WTIL standard.

    Types of transactions — certain transactions are much more time-intensive than
     others. For example, international shipment and passport transactions take
     longer than simple, domestic transactions. Thus, offices that conduct a large
     number of these time-intensive transactions are more susceptible to exceeding the
     5-minute WTIL standard.

12
  A 5-minute WTIL standard has been in place since at least 1995. Postal Service retail managers have continued to
periodically evaluate this standard.

                                                        5
Retail Customer Experience Program                                              MS-AR-13-010




      Demographic considerations — offices where language barriers exist may also be at
       greater risk of exceeding the 5-minute WTIL standard.

Because these factors are more prevalent at some offices than others, the result is
those offices face a higher risk of exceeding the 5-minute WTIL standard. Retail unit
officials we met with in low-scoring districts echoed these concerns but also pointed out
that many of their customers recognize these complexities and factor them into their
expectations — meaning their customers may accept a WTIL exceeding 5 minutes, as
long as their needs are met and the window clerk is courteous and helpful.

Headquarters officials recognize this issue and stated that the RCE contractor has
raised concerns over universal application of the 5-minute WTIL standard. These
officials also noted that having simpler transactions being diverted to alternate access
channels like the Automated Postal Center may eventually result in a greater
concentration of complex transactions at the retail window, which may make it even
more difficult to achieve the 5-minute WTIL standard. Because these mailing and
shipping complexities and other demographic changes are likely to continue, the Postal
Service may want to consider revising the universal 5-minute WTIL standard. This could
entail implementing a sliding standard based on a 'complexity' factor or comparing WTIL
to the same period from the previous year. Doing so would allow for more equitable
WTIL comparisons.

Retail Customer Experience Guidance

The Postal Service can improve the effectiveness of the RCE Program by updating its
guidance to reflect the organizational intent of the program. Headquarters officials
stated that the main purpose of the RCE Program is assessing compliance with
organizational priorities, not enhancing customer satisfaction or revenue generation.
Handbook PO-209, however, states that the "program’s purpose and intent are to use it
as a diagnostic tool to correct conditions detrimental to customer satisfaction and that
may inhibit revenue growth." It further states that "the results are about driving behavior
that will result in improved customer satisfaction and increased retail revenue." The
RCE page on the Postal Service's intranet reiterates these program goals. 13 Once the
Postal Service has reassessed the RCE Program, it must align its RCE guidance with
the program's objectives to ensure that both program managers and field retail officials
have a consistent view of the organizational objective of the program.




13
     Postal Service intranet.

                                             6
Retail Customer Experience Program                                             MS-AR-13-010




Recommendation

We recommend the vice president, Delivery and Post Office Operations:

1. Reassess the Retail Customer Experience (RCE) Program to include additional
   emphasis on customer satisfaction and revenue generation. Key considerations
   should include:

    Updating the scoring system to increase the value of the RCE variables
     pertaining to the personal interaction between the clerk and the customer to
     improve customer satisfaction and promote revenue generation.

    Reassessing the 5-minute wait time in line standard.

    Updating RCE guidance to reflect the organizational objective of the program.

Management’s Comments

Management disagreed with our finding, recommendation, and monetary impact.
Regarding our finding that RCE Program scoring focuses mainly on compliance and
does not sufficiently factor in customer satisfaction and revenue-growing variables,
management stated that, in prior years, these categories were weighted, but are no
longer included. They stated that they made these changes in response to customer
feedback and the changes lead to higher customer satisfaction and loyalty.

Regarding our recommendation, management disagreed that the current structure of
the program hinders customer satisfaction and stated that current RCE guidance
reflects the organizational objective of the program. Management stated, however, that
they are currently evaluating the RCE Program, assessing the value generated by this
program, and reviewing WTIL criteria.

In response to our monetary impact estimate, management disagreed with our
methodology and resulting estimate. Specifically, they questioned the validity of the
Postal Service data we used in our calculation and our application of a 5 percent
adjustment factor. See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) does not consider
management’s comments responsive to the finding and recommendation. While we
recognize that the Postal Service is currently evaluating the RCE Program and WTIL
criteria, we believe it is missing an opportunity to improve the effectiveness of the RCE
Program by not taking corrective actions to update the scoring system.




                                            7
Retail Customer Experience Program                                             MS-AR-13-010



While management disagreed that the current structure of the program hinders
customer satisfaction, we believe the current scoring structure is driving operational
decisions and behaviors at local retail offices that are not conducive to enhancing
customer experiences and capturing revenue-generating opportunities. For example,
only 10 percent of the RCE score relates to the interaction between the window clerk
and the customer — a part of the visit that leading practices show has a major impact
on customer experiences and their loyalty and revenue spending decisions.
Furthermore, while management raised issues about the potential customer impact of
reverting back to the former scoring system, we believe options are available for
improving the scoring system using data collected by mystery shoppers. Improving the
scoring system could benefit both the Postal Service and its customers. We are
encouraged by management's statement that they are evaluating the RCE Program,
assessing its value, and reviewing the WTIL criteria. We continue to believe, however,
that management needs to update the corresponding Postal Service guidance to reflect
both the current status of the program and any pending modifications.

Regarding our monetary impact estimate, while management questioned the statistical
validity of certain Postal Service RCE data used in our calculations, we used the same
Postal Service data that Postal Service retail managers throughout headquarters and
the field use when evaluating retail performance. In regard to the Postal Service’s
revenue loss data, management stated there is no validation that any percentage of its
customers would purchase a pre-determined product or service. This consideration was
a key factor in our use and application of the conservative 5 percent transaction factor in
our methodology. While we recognize that universally applying this 5 percent factor has
limitations, we believe that we did so in a reasonable and conservative manner.

Since management is taking partial corrective action related to evaluating the RCE
Program and assessing its value, we will not pursue formal resolution and will be
closing our recommendation with the issuance of this report.




                                             8
Retail Customer Experience Program                                               MS-AR-13-010



                             Appendix A: Additional Information

Background

The Postal Service's retail network includes 32,000 facilities and hosted 1.7 billion
transactions in FY 2012. The Postal Service developed the RCE Program to identify and
correct conditions detrimental to customer satisfaction that may inhibit revenue growth
at its larger retail facilities. Specifically, the program applies to offices that generate at
least $450,000 in annual walk-in revenue or that are in the top 20 percent of the highest
revenue-producing offices within a district (in FY 2012, this covered 8,400 retail units).

The RCE Program relies on independently contracted mystery shoppers who conduct
mailing transactions at post offices throughout the year and evaluate their experiences.
Each retail unit in the RCE Program is evaluated about eight times a year. RCE scores
are then developed to assess retail performance using the methodology shown in
Table 2.

                        Table 2. FY 2012 RCE Program Information

  Category                    Category Description                         Scoring
WTIL                   How long was the wait in line?             Up to 5 minutes: 40
                                                                  points
                                                                  Between 5-6 minutes:
                                                                  24 points
                                                                  Exceeding 6 minutes:
                                                                  0 points
HAZMAT                 Did the employee ask whether the item      Yes: 15 points
                       contained anything potentially             No: 0 points
                       hazardous?
Product Offering       Did the employee offer specific            0 points
                       products and services?
Product                Did the employee explain the benefits      0 points
Explanations           or features of the products and services
                       offered?
Promotion and          Were items used to advertise the           0-25 points
Merchandising          organization, such as forms and
                       shipping supplies, available and neatly
                       displayed? Were menu boards
                       displayed properly?
Image                  Was the facility clean? What were the      0-20 points
                       employees' attitude and behavior like?
Source: Postal Service RCE Handbook and managers.

In FY 2012, there were 79,350 RCE evaluations and the Postal Service spent
$3.7 million on this contract.



                                                    9
Retail Customer Experience Program                                                                   MS-AR-13-010



Objectives, Scope, and Methodology

Our objectives were to evaluate the effectiveness of the RCE Program and identify
opportunities to improve customer service and generate revenue.

To accomplish our objectives, we:

    Analyzed the Postal Service’s management of the program, including oversight of
     contractors.

    Reviewed policies, procedures, records, and contracts related to the RCE Program.

    Analyzed data, metrics, goals, and results collected from the RCE Program and
     other relevant systems (such as the Enterprise Data Warehouse [EDW] 14).

    Judgmentally selected locations for additional fieldwork based on RCE scores (for
     example, high scores, low scores, or improved scores). This additional fieldwork
     entailed interviewing retail officials and reviewing key RCE documentation, such as
     RCE reporting and corrective action processes.

    Reviewed and evaluated actions the Postal Service has taken as a result of the
     program.

    Reviewed and analyzed contractor requirements, the overall process for collecting
     data, and performance metrics.

    Reviewed leading practices related to mystery shopper programs.

    Interviewed headquarters and field Delivery and Post Office Operations officials,
     Corporate Information Security Office officials, contractors, and other Postal Service
     officials as necessary.

We conducted this performance audit from September 2012 through July 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on June 6, 2013, and included their
comments where appropriate.



14
   The Point-of-Service (POS) ONE terminal is the primary hardware and software system used to conduct sales
transactions during the Post Office check-out process. POS ONE automates retail transactions, enhances customers'
experience, and captures transactional data related to products and services sold. This information can be extracted
through the EDW.

                                                        10
Retail Customer Experience Program                                           MS-AR-13-010



We assessed the reliability of RCE data by reviewing the data and the controls
governing the contractor databases that collect and store the data and by interviewing
agency officials knowledgeable about the data. We determined that the data were
sufficiently reliable for the purposes of this report.

Prior Audit Coverage

Mystery Shopper Program (Report Number HR-MA-11-002, dated April 28, 2011). The
Postal Service uses the Mystery Shopper Program as a diagnostic tool to measure
conditions that impact customer satisfaction, promote safety, educate customers about
products and services, and foster revenue growth. The report concluded the integrity
and objectivity of the Mystery Shopper Program was compromised because information
regarding mystery shop sites, as well as the dates and scenarios of scheduled
evaluations, was available to anyone who accessed a contractor's website. The OIG
recommended that Postal Service officials modify the Mystery Shopper Program
contract and implement internal controls to ensure that advance notice of dates, sites,
and scenarios for mystery shopper evaluations are not available to Postal Service
employees and the general public. In addition, the OIG recommended that Postal
Service officials consult with Supply Management to determine whether the Postal
Service was entitled to a refund as a result of the contractor allowing unauthorized
access to information regarding the Mystery Shopper Program on its website.
Management agreed with the OIG’s recommendations and implemented corrective
action but did not seek a refund, because any damages resulting from the objectivity of
the Mystery Shopper Program being compromised were immaterial.




                                           11
Retail Customer Experience Program                                                                 MS-AR-13-010



                                   Appendix B: Monetary Impacts

          Recommendation                   Impact Category                            Amount
                1                     Revenue Loss 15                                  $39,018,089
                    1                 Increased Revenue 16                              15,436,067
                  Total                                                                $54,454,156

To calculate the preceding monetary impact, we reviewed data in the EDW for
FYs 2011 and 2012. We focused on the 'revenue loss' variable from the RCE data,
which is determined when the Postal Service window clerk fails to offer the mystery
shopper a product or service consistent with the 'product offering' guidance. 17

Considering our key findings that the RCE scoring system was not sufficiently
emphasizing customer satisfaction and revenue generation, we believe it is
reasonable to assume that (1) comparable 'revenue losses' were occurring for other
non-RCE-scored retail transactions and (2) that emphasizing these variables in the RCE
score would result in the Postal Service capturing 'revenue loss' from some portion of its
total visits to the retail window at mystery shopped offices.

We estimated the monetary impact associated with this 'revenue loss' factor
extrapolated to a small segment of the total visits to the retail window at mystery
shopped offices for FYs 2012-2014 in Table 3. The following information provides useful
context regarding our assumptions and calculations:

    FY 2013-2014 Estimates – we calculated estimates for the average revenue loss per
     evaluation and total visits to the retail window at mystery shopped offices for
     FYs 2013 and 2014 by applying the percentage change between FYs 2011 and
     2012. For example, between FYs 2011 and 2012, the average revenue loss per
     evaluation decreased by 8.2 percent. We used that same percentage decrease to
     estimate the average losses for FYs 2013 and 2014. We found this to be a
     reasonable way to incorporate the downward trends related to these two variables.

    5-Percent Factor – to recognize that many retail visits may not lend themselves to
     additional revenues regardless of whether the clerk asked the correct 'product
     offering' questions, the team judgmentally applied the average revenue loss per
     evalution to only 5 percent of all visits to the retail window at mystery shopped
     offices.




15
   Amount Postal Service is (or was) entitled to receive but was underpaid or not realized because policies,
procedures, agreements, requirements, or good business practices were lacking or not followed. May be recoverable
or unrecoverable. May apply to historical events or a future period (in the sense perceived future losses may be
prevented by the implementation of a recommendation).
16
   Increased revenue from existing functions or revenue generated from new sources, perhaps because of
implementing a new marketing initiative.
17
   Handbook PO-209, Section 8-2, dated May 2011.

                                                       12
Retail Customer Experience Program                                                        MS-AR-13-010




                            Table 3. Monetary Impact Calculation

    Category          FY 2011        FY 2012         Percent
                                                     Change      FY 2013 (Estimated)    FY 2014 (Estimated)
 Revenue loss           $55,577         $53,243        -4.2%                     N/A                      N/A
 (from RCE)
 Number of RCE            76,425            79,350        3.8%                   N/A                      N/A
 evaluations
 (from RCE)
 Average                   $0.73             $0.67     -8.2%                    $0.62                    $0.56
 revenue loss per
 evaluation
 Total visits at     661,342,046   622,586,037         -5.9%             585,853,461            551,288,107
 retail window
 (mystery shop
 offices)
 5-percent factor            N/A     31,129,302            N/A             29,292,673             27,564,405
 (adjustment)
 Estimated                   N/A   $20,856,632             N/A           $18,161,457            $15,436,067
 monetary impact
 (average
 revenue loss per
 evaluation
 multiplied by
 5 percent of
 visits to mystery
 shopped retail
 windows)
Note: N/A is defined as not applicable.
Source: OIG analyses of RCE and EDW data.

Based on the preceding analysis, we estimated revenue losses of $20.9 million in
FY 2012 and $18.2 million in FY 2013 by not having a sufficient emphasis on revenue
generation and customer satisfaction in the RCE scoring system. Furthermore, we
estimate the Postal Service could capture increased revenues of $15.4 million in
FY 2014 by taking corrective actions based on our recommendation to increase the
emphasis on revenue generation and customer satisfaction in the RCE scoring system.




                                                     13
Retail Customer Experience Program                           MS-AR-13-010




                         Appendix C: Management's Comments




                                        14
Retail Customer Experience Program        MS-AR-13-010




                                     15
Retail Customer Experience Program        MS-AR-13-010




                                     16
